CERTIFICATE OF SERVICE

Thereby certify that on this 23rd day of October, 2020, I served a copy of the Motion To
Delay Distribution of Petition for Writ of Certiorari on counsel for respondent by placing it in
the United States mail, first class postage prepaid, addressed to:

Bret Alan Dublinske

Fredrikson & Byron, P.A. :
505 East Grand Avenue, Suite 200
Des Moines, IA 50309

I further certify that all parties required to be served. —

Z— (Lp
Eric Schnapper 7

Counsel for Petitioner

  

 
